Audit of USAID/Egypt’s Performance Monitoring
    for Indicators Appearing in the FY 2002
 Results Review and Resources Request Report


         Audit Report No. 6-263-01-003-P
                 March 20, 2001




                 Cairo, Egypt
In 1995, the U.S. Agency for International Development (USAID) developed a new reporting
system that included the Results Review and Resources Request (R4) report. This is the
most significant performance report that operating units send annually to their respective
bureaus. USAID’s Automated Directives System (ADS) requires that information in the R4s
be used, as appropriate, for internal analyses, responding to external inquiries, and USAID-
wide results reporting.

In April 2000, USAID/Egypt submitted its annual R4, which highlighted 1999 program
accomplishments and strategic directions for fiscal years 2000 through 2002. Underpinning
the Mission’s annual R4 report is a USAID-prescribed performance monitoring system,
which encompasses: (1) establishing performance indicators, (2) preparing performance
monitoring plans, (3) setting performance baselines, (4) collecting performance data, and (5)
assessing data quality.


Audit Objective
This audit represents one of a worldwide series of audits that were requested by USAID’s
Bureau for Policy and Program Coordination (PPC) and are being carried out by USAID’s
Office of Inspector General. The audit objective and methodology for this series of audits
were developed in coordination with PPC. This audit was performed by the Office of
Inspector General’s regional office in Cairo, Egypt and answered the following audit
objective:

       Did USAID/Egypt monitor performance in accordance with Automated
       Directives System E203.5.5 and other relevant guidance as demonstrated by
       indicators appearing in its Results Review and Resources Request report for FY
       2002?

Appendix I contains a discussion of the scope and methodology for the audit.

Audit Findings
Did USAID/Egypt monitor performance in accordance with Automated Directives
System E203.5.5 and other relevant guidance as demonstrated by indicators appearing
in its Results Review and Resources Request report for FY 2002?


USAID/Egypt generally monitored performance in accordance with ADS E203.5.5 as
demonstrated by indicators appearing in its R4 report for fiscal year 2002, except that its
performance monitoring plans did not meet standards and certain data limitations were not
disclosed.

USAID/Egypt’s R4 report included 42 performance indicators to measure the progress of its
programs. Our audit reviewed 11 indicators within seven of the Mission’s eight strategic
objective areas and within one special objective area. Based on the indicators reviewed, the


                                         Page 2 of 16            Audit Report No. 6-263-01-003-P
Mission had generally (a) established performance reporting baselines, (b) provided support
for reported 1999 performance results, and (c) performed data quality assessments.
However, the Mission had not:

•   prepared complete and detailed performance monitoring plans, or

•   disclosed data limitations applicable to two indicators in its fiscal year 2002 R4 report.

To improve its performance monitoring system, the Mission needs to establish a process to
(1) ensure that performance monitoring plans are prepared, approved, and when appropriate,
updated and (2) disclose data limitations. These opportunities for improvement are discussed
below and summarized in Appendices III and IV.

Performance Monitoring
Plans Were Not Complete

Contrary to USAID guidance, USAID/Egypt did not have complete performance monitoring
plans for any of the 11 indicators reviewed. This occurred because the Mission had not
established a process for reviewing, approving, and updating its performance monitoring
plans. As a result, the Mission lacked critical tools for planning, managing, and documenting
data collection and thus, did not have assurance that it was maintaining the controls that are
essential to the operation of a performance-based management system.

        Recommendation No. 1:        We recommend that USAID/Egypt establish
        procedures to ensure that performance monitoring plans are reviewed,
        approved, and updated in accordance USAID’s Automated Directives System.

The following paragraphs describe this opportunity for improvement in detail.

For the performance monitoring plans prepared for the seven strategic objectives and one
special objective that we reviewed, we found that the plans were not as complete as required
by USAID guidance. Specifically, the plans did not always meet USAID standards that
require: (1) a precise indicator definition, (2) identification of the specific data source(s), (3)
a description of the data collection method, (4) specification of a data collection frequency
and schedule, and (5) designation of responsibility for data collection. Appendix IV provides
details on how the Mission’s performance monitoring plans did not meet the requirements of
Automated Directives System E203.5.5b 1 .

Strategic objective team members stated that one cause for these shortcomings was that
during fiscal year 1999 Mission officials focused on the development of a new 10-year
country strategy covering fiscal years 2000 – 2009. That is, because the development of the
Mission’s new strategy was a priority, strategic objective teams focused during fiscal year

1
 ADS E203.5.5 was superceded by ADS 201.3.4.13 after the period under audit. The new provisions are more
stringent than the old. For example, the new guidance requires strategic objective teams to review and update
their performance monitoring plans at least annually and for the head of the operating unit (i.e., the Mission
Director) to review and approve the plans.


                                                 Page 3 of 16               Audit Report No. 6-263-01-003-P
1999 on the development of new strategic objectives, performance indicators, and related
performance monitoring plans. Accordingly, they did not focus on their fiscal year 1999
performance indicators because they did not know which indicators would be carrying
forward to the new country strategy; and thus, they did not review, update, and/or complete
the performance monitoring plans for these indicators. However, without complete fiscal
year 1999 performance monitoring plans being used to prepare the fiscal year 2002 R4, the
Mission did not have assurance that it was maintaining the controls that are essential to the
operation of a performance-based management system.

In May 2000 the Mission hired a contractor to assist strategic objective teams in preparing
performance monitoring plans for indicators included in the Mission’s new strategic plan.
These new performance monitoring plans are expected to be finalized in the near future and
used for the preparation of the fiscal year 2003 R4.

During the course of our audit we reviewed draft versions of the new performance
monitoring plans and found that the weaknesses we had identified in the fiscal year 1999
performance monitoring plans had largely been corrected. That is, the new performance
plans included precise indicator definitions, specific data sources, and detailed data collection
methodologies and frequencies. The plans also clearly assigned responsibility for data
collection to an individual or office. Accordingly, the performance monitoring weaknesses
described in Appendix IV have largely already been addressed and thus, we are not making a
recommendation for the Mission to correct the weaknesses in the performance monitoring
plans that we reviewed.

Although, as mentioned above, the weaknesses in the performance monitoring plans were
primarily caused by the Mission’s focus on what it considered to be a higher priority (i.e., the
development of a new 10-year strategic plan), another principal cause related to the
decentralized nature of the Mission’s performance monitoring plan development process and
a lack of procedures for ensuring that plans were reviewed, approved, and updated. As a
result, we found that the quality of the Mission’s performance monitoring plans varied by
strategic objective team and as mentioned previously, that the performance monitoring plans
did not meet USAID requirements. To ensure that future performance monitoring plans
meet USAID requirements, we have recommended that USAID/Egypt establish procedures
for reviewing, approving, and updating performance monitoring plans.

Data Limitations Were
Not Always Disclosed

Contrary to USAID guidance, USAID/Egypt did not disclose data limitations in the R4 report
for 2 of 11 indicators reviewed. This occurred because Mission officials were either unaware
of the data limitations or were unaware of the need to include the data limitations in the
Mission’s R4. As a result, USAID management, Congress, and the public did not have
sufficient information to determine how much reliance could be placed on the data reported
for the two indicators in question.




                                          Page 4 of 16            Audit Report No. 6-263-01-003-P
       Recommendation No. 2: We recommend that USAID/Egypt develop procedures
       to ensure that data reported in the Mission’s Results Review and Resources
       Request reports include disclosure of any data limitations in accordance with
       USAID guidance.

The following paragraphs describe this opportunity for improvement in detail.

In December 1999, USAID's Bureau for Policy and Program Coordination (PPC) issued
guidance to operating units for preparing their fiscal year 2002 R4 reports. That guidance
required operating units to use the comments section of their reports for reporting on data
quality issues. Specifically, the comments section of the R4 report was to be used to discuss,
among other things, significant data limitations and their implications for measuring
performance results against anticipated performance targets. Data limitations are defined as
errors that would lead to an inaccurate assessment of a program's progress towards achieving
its goals.

Contrary to PPC’s guidance, 2 of 11 indicators reviewed had data limitations that were not
disclosed in the R4 report. Those limitations were not disclosed because Mission officials
were either unaware of the data limitations or were unaware of the need to include the data
limitations in the Mission’s R4. The following paragraphs describe both examples in detail.

•   Girls receiving basic education: The Mission reported that the cumulative number of
    “girls receiving quality basic education through USAID intervention” in 1999/2000 was
    41,489. However, the Mission did not disclose in its R4 that the reported figure may
    have included some girls twice. That is, because contractors were not required to
    disaggregate girl beneficiaries and since a single girl could have participated in one, two,
    or three educational areas, some girls may have been counted more than once in the
    reported cumulative total. Although the strategic objective team did estimate the number
    of girls that it believed had benefited from more than one education program and
    excluded them from its reported total of 41,489, the reported total still may have
    duplicate beneficiaries. Accordingly, we believe that the team should have disclosed this
    data limitation in the R4.

•   Alexandria wastewater conveyance and primary treatment facilities: The Mission
    reported under this indicator that 2.7 million people were served by USAID-funded
    infrastructure. However, the Mission did not disclose that the reported figure was based
    on (1) population projections that were obtained from a utility master planning exercise
    and (2) an estimate that 78 percent of the population of Alexandria is served by USAID
    infrastructure. We believe that the Mission should have (1) disclosed that the reported
    2.7 million people was an estimate and (2) explained the bases surrounding the estimate.

As a result of not disclosing the above data limitations, readers of the Mission’s R4 might
misinterpret reported results as being accurate figures and make incorrect judgments in
measuring performance results against anticipated performance targets. That is, when data
limitations are not disclosed, USAID management, Congress, and the public may place an
unjustified degree of reliance on reported data. To help ensure that data limitations are



                                          Page 5 of 16           Audit Report No. 6-263-01-003-P
disclosed in future R4 reports, we recommend that the Mission develop procedures to ensure
that data reported in the Mission’s R4 reports include the disclosure of any data limitations in
accordance with USAID guidance.


Management Comments and Our Evaluation

In responding our draft report, USAID/Egypt agreed with the report’s two recommendations
and stated that it realized that the performance monitoring plans prepared prior to its new FY
2000 – 2009 strategic plan were not as complete as required by USAID guidance.

In regards to Recommendation No. 1, USAID/Egypt stated that it is drafting a Mission Order
to address the recommended procedural actions to ensure consistent application of USAID’s
guidance. In regards to Recommendation No. 2, USAID/Egypt stated that the above
mentioned Mission Order will include procedures to ensure that data reported in the
Mission’s R4 reports include disclosure of any data limitations in accordance with USAID
guidance. Based on the Mission’s comments and its planned actions to develop procedures
to strengthen its performance monitoring plan process and to ensure that data limitations are
reported in its R4, we consider that USAID/Egypt has made management decisions to
address both Recommendations No. 1 and 2. USAID’s Office of Management Planning and
Innovation should be advised when final action has been completed.




                                          Page 6 of 16           Audit Report No. 6-263-01-003-P
                                                                                     Appendix I
                                                                                     Page 1 of 2



                                   SCOPE AND
                                  METHODOLOGY


Scope

This audit of USAID/Egypt’s controls over performance monitoring was conducted in
accordance with generally accepted government auditing standards. The audit assessed the
Mission’s internal controls governing the quality of data reported in its fiscal year 2002 R4
report.   Specifically, the audit addressed whether: (1) baselines were established,
(2) adequate performance monitoring plans were completed, (3) data quality assessments
were performed, and (4) data reported in the subject R4 report complied with reporting
requirements.

This audit did not review USAID/Egypt’s entire R4 report for fiscal year 2002, which was
published in April 2000. Instead, the audit examined 11 of the 42 indicators reported in the
R4 report. The 11 indicators were judgmentally selected, with the assistance of Mission
officials, from seven of the Mission’s eight strategic objectives and from one of the
Mission’s three special objectives.

We reviewed performance monitoring documentation including: strategic planning
documentation; performance monitoring plans; and the R4 report for fiscal year 2002. We
also reviewed documentation to support the 1999 results and baselines (when available) and
data quality assessments (if performed) and interviewed program officials. The audit did not
assess the performance indicators themselves, and only limited tests were performed of the
data itself.

The fieldwork was conducted in Cairo, Egypt from August 29, 2000 through December 6,
2000.


Methodology

The audit began with a series of meetings with program officials to discuss each indicator
reported in the R4. Based on those meetings, a judgmental sample of indicators was selected
for review. Using ADS E203.5.5 and other guidance, the basic controls tested were whether
USAID/Egypt:

•   Established indicator baseline data in the R4;

•   Prepared performance monitoring plans that (1) contained a detailed definition of the
    indicator that set forth precisely all technical elements of the indicator, (2) identified all


                                          Page 7 of 16             Audit Report No. 6-263-01-003-P
                                                                                     Appendix I
                                                                                     Page 2 of 2
    data sources, (3) described the data collection method in sufficient detail to enable it to be
    applied consistently in subsequent years, (4) specified frequency and schedule of data
    collection, and (5) assigned responsibility for collecting data;

•   Completed an assessment of data quality for the indicators at an interval of no greater
    than three years;

•   Reported data that was adequately supported by source documents;

•   Reported baseline data in the R4 that were comparable to the data reported for the
    indicator; and

•   Disclosed known data limitations (if any) in the comments section of the R4 report.

The underlying premise for this audit was that performance monitoring provides reasonable
assurance that data reported meet USAID's quality standards.

An error threshold of plus or minus five percent was used to assess whether the reported
results agreed with source documentation. In forming an overall opinion on whether the
Mission monitored performance in accordance with USAID guidance, we reviewed a
summary of the Mission’s performance monitoring controls in four areas: (1) establishing
baselines, (2) preparing performance monitoring pla ns, (3) assessing data quality, and
(4) reporting results in the R4 report. (Appendix III summarizes the results our review of
these controls.)
.




                                           Page 8 of 16            Audit Report No. 6-263-01-003-P
Management Comments                    Appendix II
                                        Page 1 of 3




       Page 9 of 16   Audit Report No. 6-263-01-003-P
                                 Appendix II
                                  Page 2 of 3




Page 10 of 16   Audit Report No. 6-263-01-003-P
                                 Appendix II
                                  Page 3 of 3




Page 11 of 16   Audit Report No. 6-263-01-003-P
                                                                                                                                                             Appendix III
                                                                                                                                                              Page 1 of 2
                                                    Summary Schedule of
                                      USAID/Egypt’s Performance Monitoring Controls for
                                        Indicators Appearing in its FY 2002 R4 Report
                                                                               In the Performance Monitoring Plan…                                            In the R4…
                                                  1.            2.          3.           4.           5.           6.               7.            8.       9.            10.
                                                  Baseline      Indicator   Data         Data         Data         Responsibility   Data          Data     Comparable Data
                   Indicator                      Established   Precisely   Sources      Collection   Collection   Assigned         Quality       Agrees   Baseline      Limitations
                                                                Defined     Identified Method         Frequency                     Assessment    to                     Disclosed
                                                                                         Described    &                             Done          Source
                                                                                                      Schedule
Girls Receiving Quality Basic Education              Yes           No           No          No           No             Yes            Yes         Yes        Yes            No
Through USAID Interventions

Contraceptive Prevalence Rate                        Yes          Yes         Yes           No           No             Yes            Yes         Yes        Yes           Yes

Infant Mortality Rate                                Yes          Yes         Yes           No           No             No             Yes         Yes        Yes           Yes

New Tourism Development Sites Where                  Yes           No           No          No           No             No             No          Yes        Yes           Yes
Environmental Safeguards Are Undertaken To
Eliminate the Practice of Coastal Alterations
That Threaten Fringing Reefs and Mangroves

Value of Agricultural Production per Thousand        Yes           No           No          No           No             Yes            Yes         Yes        Yes           Yes
Cubic Meters of Water

Small Business Credit Extended                       Yes           No           No          No           No             No             Yes         Yes        Yes           N/A5

Value of Private, Non-Petroleum Exports              Yes           No           No          No           No             Yes            Yes         Yes        Yes           N/A5

Alexandria Wastewater Conveyance and Primary         Yes          Yes           No          No          Yes             Yes           N/A1         Yes        Yes            No
Treatment Facilities

Alexandria Wastewater Operation &                    Yes           No           No         Yes          Yes             Yes           N/A2         Yes        Yes           N/A5
Maintenance Cost Covered by Generated
Revenues

Public Decision Maker Acknowledgements of            Yes          Yes           No          No           No             No            N/A3         Yes        Yes           N/A5
Positions Held by Civil Society Organizations

Documented Pilot Court System Tested And             Yes           No           No         Yes          Yes             Yes           N/A4         Yes        Yes           N/A5
Accepted For Replication By Ministry of Justice

Total “No”s (xx out of 11)                             0           7            9           9             8              4              1           0          0              2



                                                                Page 12 of 16                                                               Audit Report No. 6-263-01-003-P
                                                                                                                          Appendix III
                                                                                                                           Page 2 of 2

Footnotes for the chart on the previous page:
1
  The cited population figure comes from a Master Planning Exercise, which was performed to determine how large a water treatment
plant needed to be to meet current and future population needs. Accordingly, the population estimate from the exercise was
considered to be of reasonable quality. However, as noted on page 5 we believe the Mission should have disclosed in its R4 that the
reported 2.7 million people was an estimate and the bases for the estimate.
2
    Data for this indicator comes from audited wastewater utility financial statements.
3
  Three years have not yet passed for the strategic objective team to have been required to perform a data quality assessment on the
indicator.
4
  The Mission had not yet collected any data on this indicator (i.e., it had reported “0” for years 1997, 1998, and 1999). Accordingly,
there was no data to assess.
5
    No known data limitations.




                                                   Page 13 of 16                                          Audit Report No. 6-263-01-003-P
                                                                                    Appendix IV
                                                                                     Page 1 of 3

                   DETAILED PERFORMANCE MONITORING
                       PLAN-RELATED WEAKNESSES


Indicators were not always precisely defined

We found that 7 of 11 indicators that we reviewed were not precisely defined. The following
examples illustrate what we found:

•   Value of private, non-petroleum exports: The performance monitoring plan (PMP) did not
    include a definition of the indicator.
•   Girls receiving basic education: The PMP included a definition of the indicator, but it would
    have been more precisely worded if it had defined “girls” (e.g., girls aged 6 – 10 or girls 6 –
    16).
•   Alexandria wastewater operation and maintenance cost covered by generated revenues: The
    PMP did not include a definition of the indicator.
•   Documented pilot court system tested and accepted: The PMP included a definition of the
    indicator, but it would have been more precisely worded if it had defined the term “court
    system.”
•   New tourism sites where environmental safeguards are undertaken: There was no PMP for
    this indicator and thus, there was no definition of the indicator.
•   Small business credit extended: The PMP did not include a definition of the indicator.
•   Value of agricultural production per thousand cubic meters: The PMP did not include a
    definition of the indicator.


Data sources were not always clearly identified

We found that 9 of 11 performance monitoring plans did not clearly identify data sources.

•   Value of private, non-petroleum exports: The PMP identified the data source, i.e., the
    Central Bank of Egypt, but it did not specify the type of document to be received from the
    Bank.
•   Girls receiving basic education: The PMP identified data sources, including the Ministry of
    Education and grantees, but it did not identify the type of documents to be received from
    each organization.
•   Alexandria wastewater conveyance and primary treatment facilities: The PMP identified the
    data source, but it did not identify the document to be collected.
•   Alexandria wastewater operation and maintenance cost covered by generated revenues: The
    PMP identified the data source, but it did not identify the document to be collected.
•   Documented pilot court system tested and accepted: The PMP stated “MOJ records,” and
    thus, did not clearly define the data source.




                                          Page 14 of 16             Audit Report No. 6-263-01-003-P
                                                                                    Appendix IV
                                                                                     Page 2 of 3
•   Public decision maker acknowledgements of positions held by civil society organizations
    (CSO): The PMP identifies data source organizations, but does not specify the type of
    documents to be received from the organizations.
•   New tourism sites where environmental safeguards are undertaken: There was no PMP for
    this indicator and thus, data sources were not clearly identified.
•   Small business credit extended: The PMP did not identify a data source for the indicator.
•   Value of agricultural production per thousand cubic meters: The PMP only identified one of
    three data sources used for the indicator.


Data collection methodologies were not always clearly described

We found that 9 of 11 performance monitoring plans did not adequately describe the data
collection methodology to be used to gather results to be reported in the Results Review and
Resources Request (R4) report.

•   Contraceptive prevalence rate (CPR): The PMP under “method/approach to collect data”
    stated, “CPR measures directly whether the level of contraceptive use is increasing over
    time” and thus, did not describe a data collection methodology.
•   Infant mortality rate: The PMP did not specify a data collection methodology.
•   Value of private, non-petroleum exports: The PMP did not include a method for collecting
    data. Instead, it stated “to be collected.”
•   Girls receiving basic education: The PMP did not include a method for compiling and
    summarizing results received from the strategic objective team’s partners.
•   Alexandria wastewater conveyance and primary treatment facilities: The PMP did not
    explain in detail the data collection/calculation process. Further, we found that the data
    collection method listed in the plan was not the data collection method that was actually used
    for the reported 2.7 million people served by USAID-funded infrastructure.
•   Public decision maker acknowledgements of positions held by CSOs: The PMP only stated,
    “CSOs collect.” Including an explanation/formula for how results reported from CSOs
    would be aggregated and reported in the R4 could have strengthened the PMP.
•   New tourism sites where environmental safeguards are undertaken: There was no PMP for
    this indicator and thus, no data collection procedures were specified.
•   Small business credit extended: The PMP did not specify a data collection methodology.
•   Value of agricultural production per thousand cubic meters: The PMP did not include an
    explanation of the method to be used to collect data.




                                      Page 15 of 16             Audit Report No. 6-263-01-003-P
                                                                                 Appendix IV
                                                                                  Page 3 of 3


Data collection frequencies and schedules were not always documented

We found that 8 of 11 performance monitoring plans did not document data collection
frequencies and schedules.

•   Contraceptive prevalence rate:          The PMP stated under “Schedule/Frequency,”
    “Preliminary results of the 1995 survey currently available” rather than specifying a data
    collection schedule.
•   Infant mortality rate: The PMP did not include the data collection frequency. Instead it
    stated, “1992; 1996; data available early the following year.”
•   Value of private, non-petroleum exports: The PMP states that data will be collected in
    “late December/early January,” but it does not specify the data collection period (e.g.,
    July 1 through June 30, or Oct. 1 through September 30).
•   Girls receiving basic education: The PMP does not include a schedule to collect data.
•   Public decision maker acknowledgements of positions held by CSOs: The PMP did not
    define the data collection period (e.g., July 1 through June 30).
•   New tourism sites where environmental safeguards are undertaken: There was no PMP
    for this indicator and thus, there was no data collection frequency or schedule for the
    indicator.
•   Small business credit extended: The PMP did not include a schedule or frequency of data
    collection.
•   Value of agricultural production per thousand cubic meters: The PMP did not include a
    schedule or frequency for data collection.


Responsibility for data collection was not always clearly assigned

We found that 4 of 11 performance monitoring plans did not clearly assign responsibility for
data collection.

•   Infant mortality rate: The PMP assigned data collection responsibility to an individual,
    but that person had been transferred to another Mission and thus, was not the person who
    was responsible for collecting data for the FY 2002 R4.
•   Public decision maker acknowledgements of positions held by CSOs: The PMP did not
    assign responsibility for collecting data.
•   New tourism sites where environmental safeguards are undertaken: There was no PMP
    for this indicator and thus, the plan did not clearly assign data collection responsibility.
•   Small business credit extended: The PMP did not identify a responsible person or office
    for data collection.




                                   Page 16 of 16             Audit Report No. 6-263-01-003-P
